 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


        USCIS Faces Challenges in
     Modernizing Information Technology




      Office of Information Technology
OIG-05-41                     September 2005
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528



                                                                     Homeland
                                                                     Security

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, effectiveness, and efficiency within the department.

This report is an assessment of U.S. Citizenship and Immigration Services' information technology
management. The report is based on interviews with employees and officials within DHS and other
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations


  Executive Summary....................................................................................................................... 1

  Background .................................................................................................................................... 2

  Results of Audit .............................................................................................................................. 4

          Current IT Environment Impedes Efficiency........................................................................ 4

          Challenges to Modernizing IT ............................................................................................. 21

  Recommendations ........................................................................................................................ 36

  Management Comments and OIG Evaluation............................................................................. 37

Appendices

  Appendix A:            Scope and Methodology ..................................................................................... 40
  Appendix B:            USCIS Process for Family-Based Permanent Residence and
                         Naturalization Applications ................................................................................ 42
  Appendix C:            Management Response to Draft Report ...............................................................45
  Appendix D:            Major Contributors to the Report ....................................................................... 50
  Appendix E:            Report Distribution...............................................................................................51

Abbreviations
  CIO                   Chief Information Officer
  CLAIMS                Computer Linked Application Information Management System
  DHS                   Department of Homeland Security
  GAO                   Government Accountability Office
  IBIS                  Interagency Border Inspection System
  INS                   Immigration and Naturalization Service
  IT                    Information Technology
  LAN                   Local Area Network
  OCIO                  Office of the Chief Information Officer
  OIG                   Office of Inspector General
  USCIS                 U.S. Citizenship and Immigration Services

Figures

  Figure 1              USCIS Process for Family-Based Permanent Residence and Naturalization
                        Applications……………………………………………………………………….6



                              USCIS Faces Challenges in Modernizing Information Technology
Table of Contents/Abbreviations

  Figure 2   Boxes of Files Ready for Shipment to the National Records Center in Lee's
             Summit, Missouri.....................................................................................................8

  Figure 3   National Records Center in Lee's Summit, Missouri…...…………..……….…...11

  Figure 4   Index Cards of Biographical Information..………………………………………15

Tables

  Table 1    Overview of USCIS Processes and Systems Issues…..…………………………..5

  Table 2    Funds for Backlog Elimination, 2002-2006.….……………….………………...28




                   USCIS Faces Challenges in Modernizing Information Technology
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                The effective use of information technology (IT) is critical to increase
                efficiency and eliminate the backlog in immigration benefits processing.
                Repeatedly, however, assessments of the prior Immigration and Naturalization
                Services’ (INS) operations have highlighted numerous problems that the
                agency experienced in applying IT systems and equipment to manage its
                adjudication workloads. The current U.S. Citizenship and Immigration
                Services (USCIS) faces the continuing challenge of overcoming these issues
                and modernizing its technology–even as it matures and evolves as a new
                bureau under the auspices of DHS.

                As part of our ongoing responsibilities to evaluate the effectiveness of DHS
                programs and activities, we conducted an audit of USCIS’ IT program. The
                objectives of our audit were to determine how well USCIS is managing IT,
                and assess USCIS’ plans for modernizing IT and its effectiveness in
                implementing those plans across the organization. The scope and
                methodology of this audit are discussed in Appendix A.

                USCIS’ IT environment for processing immigration benefits continues to be
                inefficient, hindering its ability to carry out its mission. USCIS’ processes are
                primarily manual, paper-based, and duplicative, resulting in an ineffective use
                of human and financial resources to ship, store, and track immigration files.
                Adjudicators use multiple and non-integrated IT systems to perform their jobs,
                which reduces productivity and data integrity. Further, IT software and
                hardware systems are not well configured to meet users needs. Recently, the
                Office of the Chief Information Officer (OCIO) has outlined plans to upgrade
                desktops and servers in the field and consolidate data centers to help address
                these problems.

                Despite federal requirements, USCIS has not had a focused approach to
                improving the processes and systems used to accomplish its citizenship and
                immigration services mission. IT planning and implementation has been
                conducted in a decentralized manner across the organization, although initial
                steps have been taken recently to address this issue. In June 2005, the bureau
                began to centralize its IT operations by reassigning IT employees from its
                nationwide benefits, records, and service centers to the OCIO. Additional
                phases include integrating IT personnel and resources from USCIS
                headquarters, district offices, and sub offices into the OCIO by the first


                 USCIS Faces Challenges in Modernizing Information Technology

                                                  Page 1
                           quarter of FY 2006. These are positive steps; however, it is too soon to assess
                           their effectiveness.

                           In the interim, USCIS continues to rely on personnel rather than technology to
                           meet its backlog reduction goals and other priorities. The bureau has not
                           recognized the potential benefits of leveraging IT, streamlining processes, and
                           coordinating improvement initiatives to better meet its mission objectives.
                           The impact of the DHS reorganization, new security requirements, and
                           changes to immigration legislation impose additional challenges to effective
                           modernization.

                           We recommend that the Acting Deputy Director, U.S. Citizenship and
                           Immigration Services:

                           •   Develop a modernization strategy that includes short- and long-term goals,
                               funding plans, and performance measures to guide USCIS entities in
                               accomplishing their citizenship and immigration services missions.
                           •   Complete implementation of plans to centralize IT by placing all USCIS
                               IT employees, budgets, and systems under the Chief Information Officer's
                               (CIO) authority and control.
                           •   Ensure that the centralized CIO operation and its IT transformation plans
                               and systems initiatives are linked to and effectively support the
                               consolidated USCIS strategy.
                           •   Review, analyze, and reengineer benefits adjudication activities to help
                               eliminate duplication, transition from paper-based processes, better
                               integrate systems, and provide systems access to the users who need it.
                           •   Finalize and implement plans to upgrade and standardize IT hardware and
                               software systems to support reengineered processes and systems
                               integration and access improvement initiatives.
                           •   Ensure representation and participation of users at the various levels from
                               across USCIS in all process reengineering and IT transformation activities.

Background
                           With the passage of the Homeland Security Act of 2002, the functions of the
                           former INS transferred to DHS. 1 Upon its inception on March 1, 2003, DHS
                           assigned responsibility for delivering citizenship and immigration services to
                           its new USCIS bureau. DHS merged the remaining INS responsibilities with
                           the U.S. Customs Service to create two other bureaus: U.S. Customs and
                           Border Protection and U.S. Immigration and Customs Enforcement. The

1
    Homeland Security Act of 2002, Public Law 107-296, November 25, 2002.

                           USCIS Faces Challenges in Modernizing Information Technology

                                                            Page 2
Director of USCIS reports directly to the Deputy Secretary for Homeland
Security and oversees a staff of approximately 15,000 employees. Currently,
USCIS’ priorities are to (1) promote national security, (2) eliminate the
immigration adjudication backlog, and (3) implement solutions for improving
immigration customer services.

USCIS is a production-oriented bureau, responsible for processing about 50
different types of immigration applications including citizenship, asylum,
lawful permanent residence, employment authorization, refugee status,
inter-country adoptions, replacement immigration documents, family and
employment-related immigration, and foreign student authorization. USCIS
provides its services through a nationwide structure consisting of
headquarters, four service centers, 33 district offices, 133 application support
centers, three regional offices, three overseas district offices, eight asylum
offices, six telephone centers, the National Records Center, and the National
Benefits Center. USCIS processes and adjudicates over seven million
applications each year, including over 75,000 asylum cases and approximately
one million naturalizations. As part of providing these benefits, USCIS
conducts over 35 million national security checks annually and services six
million customers through information counters at its field offices nationwide.
In FY 2004, USCIS had a budget of approximately $1.8 billion for
immigration services, comprised of a combination of appropriated funds and
fee revenues.

Over the past decade, the former INS instituted a series of backlog elimination
plans to meet its long-standing challenge of processing the millions of
applications received annually in a timely and consistent manner. In 1995,
INS announced “Citizenship USA,” an initiative to reduce the backlog of
pending naturalization cases so that eligible applicants could be naturalized
within six months of submitting an application. In 2002, the President
decided to address the problem with a five-year, $500 million initiative to
eliminate the backlog of immigration benefit and naturalization applications.
The goal of this initiative is to process every type of case, in every office,
within a six- month time frame, by 2006. USCIS’ Backlog Elimination Plan
has three key objectives: achieve a high level of performance, transform
business practices, and ensure integrity in providing immigration services.
Since the creation of this program in 2002, USCIS has made quarterly updates
to the Backlog Elimination Plan. By the end of FY 2004, the backlog totaled
approximately 1.5 million cases.

Previous OIG, as well as other federal and consulting reports, documented
various problems that INS experienced in managing IT to support benefits


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 3
                         processing. The first of these reports, published by the Logistics Management
                         Institute in August 1998, reported that INS did not have effective cost,
                         schedule, technical, and benefit baselines for tracking and managing IT
                         projects. 2 In a subsequent July 1999 review, the Department of Justice OIG
                         reported that INS was not adequately managing its information systems. 3
                         Further, in a series of reviews from August 2000 to May 2001, the
                         Government Accountability Office (GAO) reported that the former INS
                         (1) did not have an enterprise architecture or the management structure and
                         controls to develop one; 4 (2) had limited capability to effectively manage its
                         planned and ongoing IT investments; 5 and, (3) lacked automated case
                         management and tracking systems for processing applications other than
                         naturalizations at its district offices. 6

                         In addition to these reports, the Citizenship and Immigration Services
                         Ombudsman Annual Report 2004 asserted that one of the most pervasive and
                         significant issues facing USCIS is inadequate IT equipment and facilities.
                         Additionally, in an “Exhibit 300” business case provided to the Office of
                         Management and Budget for FY 2005, USCIS stated that a lack of IT
                         solutions impedes its ability to reduce the backlog, improve processing times,
                         effectively manage workloads, and improve customer service. 7 Further, INS
                         and USCIS summarized their IT challenges in a number of other documents,
                         including the INS Ten-Year IT Plan, INS Ten-Year Business Plan, USCIS
                         Backlog Elimination Plan, USCIS 2004 Business Plan, USCIS IT
                         Transformation Strategy, and the USCIS OCIO IT Strategic Plan.

Results of Audit

Current IT Environment Impedes Efficiency
                         Despite repeated assessments and attempts to modernize, USCIS’ processing
                         of immigration benefits continues to be inefficient, hindering its ability to
                         effectively carry out its mission. Processes remain primarily paper-based and

2
  Reengineering Information Technology Management at the Immigration and Naturalization Service, Logistics
Management Institute, August 1998.
3
  Follow-up Review: Immigration and Naturalization Service Management of Automation Programs, Office of the
Inspector General, Audit Division, U.S. Department of Justice, July 1999.
4
  Information Technology: INS Needs to Better Manage the Development of Its Enterprise Architecture
(GAO/AIMD-00-212, August 1, 2000).
5
  INS Needs to Strengthen Its Investment Management Capability (GAO-01-146, December 2000).
6
  Several Factors Impede Timeliness of Application Processing (GAO-01-488, May 2001).
7
  The business case, entitled Immigration Services Modernization Initiative, provides background and budgetary
information regarding immigration services modernization programs for FY 2006.

                          USCIS Faces Challenges in Modernizing Information Technology

                                                            Page 4
                duplicative, resulting in an ineffective use of human and financial resources.
                IT software and hardware systems are not well configured to meet users’
                needs. The following table provides an overview of these process and
                systems issues and their effects on USCIS operations. (See Table 1.)

                        CATEGORY                 CONDITION                           EFFECT

                    Current Processes    Extensive Use of Paper           Additional Resources Used
                                         • Slow processes                 • Redundant processes
                                         • Voluminous files               • High paper, shipping, and
                                         • Multiple shipments                storage costs
                                             nationwide                   • Extensive time tracking
                                         • Manual and labor-                 files
                                             intensive processes          • Extra time spent merging
                                                                             duplicate files
                                                                          • Ineffective performance
                                                                             reporting

                    Current Systems      Inadequate Information           Multiple Problems for Users
                                         Systems                          and Customers
                                         • Multiple, non-integrated       • Difficulty navigating
                                             systems                          among systems
                                         • Redundant information          • Numerous passwords
                                             collection                   • Lack of data integrity
                                         • Limited system access          • Inaccurate performance
                                                                              statistics
                                                                          • Inconsistent customer
                                                                              address information

                                         Inadequate Har dware             Hindered Performance
                                         Environment
                                         • Outdated IT                    •    Inconsistent hardware
                                             infrastructure                    configurations
                                         • No IT upgrade policy           •    Limited ability to update
                                         • Nonstandard upgrade                 software
                                             approach                     •    Systems crashes
                                                                          •    Lost productivity



                Table 1: Overview of USCIS Processes and Systems Issues


Current Processes

                Federal guidelines require that agencies improve the effectiveness of their
                mission operations. However, USCIS processes for adjudicating immigration
                benefits are inefficient. Extensive use of paper-based and duplicative methods

                USCIS Faces Challenges in Modernizing Information Technology

                                                 Page 5
                         has resulted in unnecessary time and money spent to process, track, and
                         transfer files.

                         Extensive Use of Paper-Based Processes

                         The Paperwork Reduction Act of 1995 and the Clinger-Cohen Act require
                         agencies to acquire, manage, and use IT to improve mission performance. 8
                         However, many of USCIS’ immigration benefits processes are manual and
                         labor- intensive. The processes are slow, characterized by the compilation of
                         paper files that are shipped multiple times throughout the country in order to
                         adjudicate cases. Two of the major benefits for which applicants apply, and
                         that comprise a large part of USCIS’ workload, are family-based permanent
                         residence and naturalization cases. Generally, individuals file for permanent
                         residence and, once it is received, apply for naturalization five to ten years
                         later. Figure 1 and the discussion below generally outline this process, as it
                         involves a number of different USCIS entities. (See Appendix B for a more
                         detailed description of the process.) In this example, an individual is
                         submitting an application for permanent residence, and subsequently,
                         naturalization within the Miami region.




                                                                                           2       Chicago
                                                                   National Benefits               Lock-box
                                                                   Center
                                                                   National
                                                                   Records Center      3
                                                                                                              1
                                                               6
                                                                               8               4
                                                             Texas Service
                                                             Center            7

                                                                                   5                              Miami District
                                                                                                                  Office



                         Figure 1: USCIS Process for Family -Based Permanent Residence and Naturalization
                         Applications. The blue arrows (1-4) correspond to the family-based permanent residence
                         process. The red arrows (5-8) track the naturalization process.

8
 Paperwork Reduction Act of 1995, Public Law 104–13, May 22, 1995; and the Clinger-Cohen Act (formerly the
Information Technology Reform Act), Public Law 104-106, Division E, 110 Stat. 642, February 10, 1996.

                         USCIS Faces Challenges in Modernizing Information Technology

                                                           Page 6
1. Application for Family- Based Permanent Residence: This process begins
   when a customer mails an application and fee to the USCIS “lock box”
   (i.e. bank) in Chicago. When personnel in Chicago complete their
   preliminary review, they mail the application to the National Benefits
   Center.

2. File Transfer to the National Benefits Center: Personnel at the National
   Benefits Center conduct a more thorough review of the application. Then,
   it is sent to the district office closest to where the customer resides so that
   USCIS personnel have the information available when they conduct their
   interviews with applicants. (In this example, the Miami District Office is
   the closest.)

3. File Transfer to the District Office: Upon receipt of the application, the
   district office shelves the file until the interview date. Eventually, the file
   is pulled from the file room and an adjudicator at the district office
   conducts an interview with the applicant.

4. File Transfer to the National Records Center: If the application for
   permanent residence is granted, the paper file is sent by truck to the
   National Records Center in Lee's Summit, Missouri. The paper file
   remains in Lee's Summit until it is needed to process another benefit for
   the same customer.

5. Application for Naturalization: Five years after receiving permanent
   residence, a customer may apply for naturalization. The customer submits
   the naturalization application to one of the four USCIS service centers
   nationwide.

6. File Transfer to the Service Center: At the service center, an application
   for naturalization must be matched with an alien file, commonly known as
   an A-file, which is requested from the National Records Center, and then
   sent to the relevant service center. When an adjudicator at the district
   office is ready to interview applicants regarding their naturalization
   application, the file is transferred from the service center’s file room and
   prepared for shipment.

7. File Transfer to the District Office: The service center ships the paper file
   to the district office closest to the customer’s residence (Miami District
   Office, in this example). An adjudicator at the district office conducts a
   naturalization interview and examination.



USCIS Faces Challenges in Modernizing Information Technology

                                 Page 7
8. Completed File Transferred to the National Records Center: Once the
   naturalization benefit has been fully processed, the paper file is sent by
   truck to the National Records Center in Lee's Summit, Missouri. (See
   Figure 2.)




Figure 2: Boxes of Files Ready for Shipment to the National Records Center in Lee's
Summit, Missouri

In addition to the processes described above, at times USCIS headquarters
transfers files among the service centers to more equally distribute the
workloads. For example, recently the Texas and Nebraska Service Centers
sent temporary non-immigrant work authorization applications and petitions
for alien relatives for adjudication to the California Service Center, where the
staff had the time and flexibility to help manage the workloads.

Paper-Based Processes Result in Additional Time, Expense, and Effort

USCIS’ paper-based processes have resulted in inefficiencies and untimely
adjudication of immigration benefits. The bureau spends a significant amount
of money to ship, store, and manage files. Further, because paper files can be
easily misplaced, adjudicators devote a significant amount of time on file
tracking and inventory.



USCIS Faces Challenges in Modernizing Information Technology

                                  Page 8
        Redundant Processes

Because its paper-based processes are slow, USCIS performs a number of
tasks that would be unnecessary if applications were adjudicated in a timely
manner. Specifically, while a customer is waiting for a decision on an
application for permanent residence–which took an average of 20 months in
the last quarter of FY 2004–the customer might apply for a number of interim
benefits such as the right to travel or work. Interim benefits must be provided
if the initial benefits requested are not processed within 90 days and they must
be renewed on an annual basis. In some instances, an individual may wait
years for permanent residence; during this time the individual may apply for
multiple interim benefits and renewals. This creates additional workloads for
USCIS employees.

USCIS employees conduct repeated security checks to verify identities and
ensure that the applicants are eligible for benefits. For example, one of the
main security checks is performed using the Interagency Border Inspection
System (IBIS). The IBIS name check is done at application receipt and
repeated as necessary to ensure it is current within 90 days of the applicant’s
adjudication. Due to the inefficiencies in benefits processing, this background
check is repeated many times during an applicant’s claims adjudication
process. One field office calculated that it conducted 3.7 IBIS checks per
application. With the high emphasis on security in today’s environment,
USCIS employees sometimes are unwilling to rely upon security checks
performed at other USCIS locations so they tend to duplicate the checks
within the 90-day period. USCIS officials have informed us that, to address
this problem, the bureau has developed and will deploy the Background
Check System, which will provide nationwide access to results of security
checks.

In addition to the IBIS check, USCIS employees conduct redundant
fingerprint checks for security purposes. USCIS application support centers
collect the fingerprints, which are forwarded to the appropriate USCIS field
offices responsible for adjudicating individual cases. The fingerprints are
valid for 15 months only. When applications are not processed within this
time frame, applicants must return to the application support centers to have
their fingerprints taken again. To address this problem, USCIS is developing
the Biometric Storage System, which will allow for storage and retrieval of
fingerprints to preclude customers from having to return to application support
centers.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 9
        Paper, Shipping, and Storage Costs

A major drawback of inefficient paper-based processing is the high cost to
ship and store files. USCIS spends millions of dollars a year shipping files
across the country. Such costs could be greatly reduced in a fully automated
environment. As shown in Figure 1 above, a naturalization application might
be shipped at least four times during the adjudication process. As files are
prepared for shipment to another location, the files must be removed from
shelves, packed into boxes, and then placed on trucks for transport. At the
next location, before any work is done, the boxes of files must be unloaded,
and the files removed from boxes and replaced on shelves. During this
review, we observed thousands of files being shipped to and from district
offices, service centers, and USCIS’ National Records Center in Lee's
Summit, Missouri. However, we were unable to obtain total annual shipping
costs for the bureau.

The cost to store the paper files is also high. In addition to the National
Records Center, USCIS stores files at a number of facilities nationwide,
including the File Storage Facility in Harrisonburg, Virginia and the National
Archives and Records Administration in Lee's Summit, Missouri. A senior
official estimated that USCIS spends about $7.5 million a year to store
temporary files in Harrisonburg, Virginia. The National Records Center holds
over 20 million USCIS files, transferring out 110,000 records a month and
receiving 250,000 records a month. (Figure 3 on the following page depicts
millions of records stored at the National Records Center.) The budgeted cost
in FY 2004 to manage records at USCIS was more than $80 million.

Further, USCIS spends a considerable sum on postage, copying, and paper
supplies as a result of its paper-based processes. While we were unable to
obtain USCIS’ total costs for these activities, one service center estimated its
FY 2004 cost for copiers and copier paper at more than $400,000, and its mail
cost at more than $2,000,000. Similarly, a district office spends
approximately $360,000 for copiers and paper each year. In addition to these
costs, the labor associated with handling and entering data from paper files
must be considered. For example, USCIS pays a contractor about $90 million
a year for filing and data entry. Data entry is a particularly inefficient process
as the same information is rekeyed multiple times when files are transferred
among USCIS locations.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 10
Figure 3: National Records Center in Lee's Summit, Missouri

        Tracking Files

USCIS staff spend time tracking the location of paper files as they are
transferred among and within USCIS offices numerous times over their life
cycle. Each time a file is moved, an employee must scan the file number into
a tracking system. Often, field offices conduct inventories of sections of
shelved files to ensure that records are not lost or misplaced. Employees
responsible for managing files conduct weekly inventories of the immigration
files in their area, which involves scanning or manually entering barcode
numbers from the files into tracking systems.

Additional time is spent identifying records when barcodes fall off of files or
if the scanning devices misread the barcode numbers. A more complicated
issue is when paperwork attached to a file becomes separated from that file
and an employee must determine where the documents belong. One division
within the National Records Center deals solely with matching separated
documents to their original files. At the time that the division was established
there were 5,000 boxes, or approximately 3.2 million separated documents,
that needed to be re- filed.

Another practice that requires tracking and matching related documents is the
use of temporary files. USCIS employees create temporary files when

USCIS Faces Challenges in Modernizing Information Technology

                                 Page 11
                applicants’ A-files are requested, but not received, from the holding offices in
                a timely manner. Creating the temporary files and then matching them with
                the permanent A-files takes time. At one location, for example, employees
                perform security checks prior to applicant interviews. If the A-files are not
                available, the employees must create temporary files to store security check
                results until the requested A-files are received. The temporary files might be
                created about a week before the interviews take place. Employees eventually
                merge the temporary files with the A- files after the y are transferred. An
                employee in one district office discussed having to create about three
                temporary files to support an average of 70-80 cases scheduled for interviews
                each day. When multiplied by the many offices across USCIS, these
                temporary files amount to a significant amount of additional work

                         Reporting Process

                Because processes are largely paper-based, there is no efficient way to gather
                data and compile reports related to performance and activities across USCIS
                locations. For example, preparation of the “G-22” report, USCIS’ main
                performance report, is a labor- intensive and time-consuming process. The
                G-22 report tracks the numbers of pending and completed applications.
                USCIS headquarters requires that field offices submit this information to help
                identify staffing needs, measure productivity, and report to the Congress.
                Employees at most USCIS field offices use manual and ad hoc processes to
                provide statistics on their work. These manual processes consume a great deal
                of time–in one district office the process to collect performance data involved
                81 people, including eight supervisors. The supervisors submitted
                information daily to a clerk, who then entered the information into a
                spreadsheet. At another location, an employee merged over 30 manual reports
                from 22 different departments to create the monthly performance reports.

IT Infrastructure Does Not Meet User Needs

                USCIS’ IT environment is inadequate to effectively support immigration
                benefits processing. Specifically, USCIS uses multiple, disparate information
                systems that are difficult to use and do not adequately share information,
                resulting in data integrity problems. The systems operate on different
                hardware platforms that are outdated, unstable, and not routinely replaced.




                 USCIS Faces Challenges in Modernizing Information Technology

                                                  Page 12
Information Systems Issues

USCIS uses a number of non- integrated systems, which do not facilitate
information exchange. Sometimes, users lack access to systems that they
need to perform their jobs.

        Multiple, Non-Integrated Systems

USCIS relies upon a variety of information systems with limited capabilities
to manage its benefits processing workloads. Different USCIS entities use
these systems, with different levels of access, at different points in the benefits
adjudication process to carry out their various responsibilities. While each
system may have a different purpose, many of the systems collect the same
information, but in different formats and with different levels of detail. The
systems are “forms-driven” rather than “person-centric,” meaning that each
system is designed to process a particular type of application rather than the
system as a whole collectively managing information focused on specific
individuals. There is no single USCIS system that collects all of the data
associated with processing benefits for a single applicant. According to one
adjudicator, if USCIS were asked to compile a complete history on an
individual, employees might have to access over a dozen systems to get this
information.

USCIS uses several principal systems to manage its immigration benefits
processing workload:

   •    Computer Linked Application Information Management System 3
        (CLAIMS 3) is the primary system for adjudication of immigration
        applications, except those related to asylum and naturalization. This
        system, accessible only at USCIS service centers, operates on both
        client-server and mainframe platforms. USCIS organizations across
        the nation independently operate at least six different versions of the
        system, uploading their information into a central CLAIMS 3
        mainframe on a nightly basis.

   •    CLAIMS 4 is the primary system for adjudication of naturalization
        applications. All district offices and service centers have access to this
        system.

   •    The Refugee Asylum Processing System is used to manage asylum
        applications.



USCIS Faces Challenges in Modernizing Information Technology

                                 Page 13
   •    The Marriage Fraud Act Amendment System is a case tracking system
        that supports adjudication of petitions to remove the conditions and
        limitations placed on immigrants who obtained resident status through
        marriage.

   •    The National File Tracking System is used to track the movement of
        immigration case files within and among USCIS offices. Each time a
        paper file is transferred, an employee in the receiving USCIS location
        uses an electronic wand to scan the document into the system. While
        service centers do not have access, district offices, as well as other
        agencies, such as U.S. Immigration and Customs Enforcement, have
        rights to use this system.

   •    The Receipt and Alien File Accountability Control System is an older
        file tracking sys tem used by service centers since they do not have
        access to the National File Tracking System. The system operates in
        the same manner as the National File Tracking System, however it
        does not track the movement of case files among locations and only
        provides information about files within a specific USCIS office.

   •    The Interim Case Management System is an interim solution to enable
        adjudicators in district offices to provide updated information
        electronically to the CLAIMS 3 system, although they lack direct
        system access.

   •    The Central Index System, created in 1985, provides status
        information on aliens and other individuals of interest to DHS users.
        Other federal and state programs can access the system to support their
        enforcement and benefits processing operations. This system does not
        include all historical data and provides only basic demographic
        information on individuals; it does not provide the detailed
        information that USCIS needs to adjudicate benefits. To supplement
        the information in this system, some USCIS offices still use paper
        index cards to provide basic information on individuals whose cases
        were adjudicated before CLAIMS 3 and 4 and the Central Index
        System were established. One location that we visited received about
        20 to 30 requests a month for information that was available only on
        the index cards. (See Figure 4.)




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 14
Figure 4: Index Cards of Biographical Information

In addition to the primary systems listed above, USCIS uses a number of other
“stove pipe” systems to support various activities. For example, USCIS uses
five different scheduling systems to assign cases to its various application
support centers. Application support centers are responsible for collecting
biometric information, such as fingerprints and photographs, from
immigration benefits applicants. The five systems used at the centers to
schedule appointments are not integrated, making it difficult to manage
workloads. Center managers expressed concern that the information they
receive regarding the number of appointments they can expect is consistently
inaccurate. As a result, the managers do not always have a good idea as to
what their center workloads will be from day to day. Some days they do not
have enough work to do and at other times they turn away applicants who
arrive on overscheduled days. In an attempt to address this problem, the
USCIS OCIO in coordination with district offices and service centers is
investigating a National Scheduler solution to eliminate the multiple
scheduling systems currently in use.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 15
        Limited Systems Access

USCIS district office personnel do not always have access to the systems they
need to perform their jobs. For example, district office employees do not have
access to CLAIMS 3, the primary system used to adjudicate cases. Therefore,
they cannot update cases to reflect approvals, denials, or other changes to
benefit applications. In 2004, to help address this problem, USCIS
headquarters provided the Interim Case Management System to the district
offices, which allows adjudicators to update case status in the National
Benefits Center’s CLAIMS 3 Local Area Network (LAN). However, the
interim system is very limited and does not have the full functionality of
CLAIMS 3. The Interim Case Management System handles only certain
types of applications.

Lack of Systems Integration Creates Multiple Inefficiencies

Because of the limited integration and access, users experience a number of
problems in using USCIS’ systems for immigrant benefits processing. For
example, us ers must remember numerous passwords (at least one per system)
and often encounter difficulty navigating among the various systems. Further,
because these systems have limited information sharing, information in the
various systems does not match when comparing data across systems, cannot
be reconciled or consistently updated, and therefore is not always reliable for
the users who need it.

        Difficulty Navigating Among Multiple Systems

Employees must use numerous passwords to access the multiple,
nonintegrated USCIS systems, which hinders their ability to efficiently
manage the benefits processing workloads. Users told us that they employ
anywhere from 5 to 17 passwords each day to access systems to perform their
work. For example, a supervisory adjudicator discussed having to log into
four different systems–with four separate passwords–just to check e- mail.
Employees find that the repeated log- ins from system to system require time
and are often frustrating. The passwords expire on different dates, requiring
that employees take time to manage them. The sheer number of passwords, as
well as the fact that they use different protocols (i.e., mix of numbers,
symbols, and upper and lower case letters), makes it difficult for users to
remember the passwords; where users write the passwords down for easy
reference, it poses a security risk. IT support consequently spends a great deal
of time providing systems access and resetting passwords for users who have
forgotten them.


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 16
Due to the lack of systems integration, users have difficulty switching among
the systems. For example, adjudicators must repeatedly log in and out of the
multiple tracking, security check, e- mail, and claims processing systems
required each day to complete their work. Because employees utilize these
systems repeatedly with breaks in-between, employees must log into the same
systems multiple times in a day. This is especially true for adjudicators who
access multiple systems while conducting applicant interviews. For example,
one adjudicator had to log in seven to eight different times to access four to
five systems in the span of one interview. If the employee logs onto one
system and leaves it idle after shifting to work on another system, the first
system may automatically log the us er off after twenty minutes of inactivity.

        Data Integrity

USCIS' non- integrated systems contribute to data integrity problems. This is
a persistent problem when field offices transfer information from their local
systems to the national system. For example, information is supposed to be
updated nightly from the CLAIMS 3 LAN to the CLAIMS 3 mainframe.
Often, the information does not upload properly and errors occur during the
transmissions.

Similarly, some officials stated that data uploaded from various systems to the
Central Index System is not always correct because of errors in transmission.
Specifically, the Central Index System provides status and basic demographic
information on individual applicants. When an immigrant’s name changes–a
common occurrence prior to naturalization–employees must enter the name
change into the CLAIMS 4 system, which is supposed to interface with and
update the Central Index System. However, in many cases the information
does not transfer properly. In such cases, the system generates a “mismatch”
report that notifies field offices of these discrepancies, which then must be
manually corrected so that information between the two systems is consistent.
According to one USCIS official, about 700 of the 5,000 naturalizations
performed in one ceremony were identified on a mismatch report; employees
had to spend approximately three to five minutes manually correcting each
error in the system. If such errors are overlooked and not corrected in a timely
manner, naturalized citizens may have difficulty in returning to the United
States when they travel internationally or obtaining employment because the
system may not reflect their proper status.

In addition, USCIS experiences data integrity problems as a result of
processes that have not been fully automated. As discussed above, “G-22”
performance reports resulting from the mix of manual and automated


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 17
processes are not reliable. There are few instructions and little training to
support developing standardized reports. As a result, some offices use tick
marks to tally work completed, while others have developed spreadsheets or
database systems to compile their performance data. Because these processes
are not standard, the performance information varies widely from office to
office and is reported to headquarters in varying formats–with differing levels
of accuracy–and cannot be reconciled easily.

In one instance, an official conducted an analysis of USCIS performance
statistics in an attempt to reconcile data in the Performance Analysis System
(much of which is manually compiled) with that in the CLAIMS 3 mainframe.
The official found large variances between the systems in terms of the
numbers of completed, denied, and approved applications. For example, the
official found that completions manually calculated by employees were eight
to ten percent higher than those recorded in the system, while receipts of
employment authorization applications were under-reported by about 50
percent. Another USCIS employee stated that since employee performance
ratings are partially based on completions, individuals might over-report their
accomplishments.

        Inconsistent Address Information

The lack of systems integration and systems access creates problems for
applicants who change their addresses after applying for benefits. All non-
U.S. citizens applying for benefits are required by law to keep USCIS
informed of their current addresses. Failure to inform USCIS of an address
change is a misdemeanor, subject to fines, imprisonment, and removal from
the United States. Applicants are instructed to send updated information by
mail to a USCIS facility in London, Kentucky, within ten days of an address
change. At this facility, the information is entered into the Non-Immigrant
Information System managed by U.S. Customs and Border Protection.
Although USCIS employees have access to the system, it is not their main
system for benefits adjudications. As such, concurrent with writing to
Kentucky, applicants applying for naturalization must telephone the National
Customer Service Center to advise of address changes; applicants applying for
other services must notify their local immigration offices in writing of the
changes. These additional notifications of address change are then entered
into a variety of other USCIS systems.

Because of the lack of integration and consistency in updating the various
systems, an applicant’s address change may be recorded in one system but not
recorded in other systems used to process benefits for that individual. The


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 18
resulting variance in the applicant’s information across systems has led to the
applicant’s mail being sent to the wrong address or the applicant not receiving
any mail on important benefits-related matters. For example, when USCIS
sends employment authorizations or permanent residence cards to the wrong
addresses, applicants may not receive the documents and therefore may not be
able to work in the U.S. or travel abroad without difficulty.

This inefficient process for managing address changes affects USCIS
employees as well. Specifically, when field offices receive undeliverable mail
or when applicants do not show up for interviews, USCIS employees have to
spend time determining why. Often, the cause is an incorrect applicant
mailing address. If USCIS employees cannot obtain up-to-date information to
contact the applicant, benefits may be denied and the denials may take effect
after 30 days without the individual's awareness. In some cases, such denials
can result in deportation proceedings simply because the applicants did not
receive notice to appear for interviews.

Further, this ineffective address change process affects immigration lawyers.
For example, if attorneys change addresses, there is no easy way to record
such changes and match this information in USCIS systems to files on the
clients who they represent. As a result, lawyers who change their addresses
must submit the updated information to USCIS for each of their clients so that
they can continue to receive the information necessary to adequately represent
them. In one case, a lawyer submitted 1,000 address change notifications, but
estimated that only about half of them were input to USCIS systems.
Conversely, due to incorrect addresses, immigration lawyers frequently
receive information from USCIS about clients who they do not represent.
This problem is so pervasive that the American Immigration Lawyers
Association website includes a lost and found section so that lawyers can
match applicants with the correct attorneys.

Hardware Environment

USCIS' IT infrastructure is outdated and unstable, hindering the ability of
USCIS employees nationwide to effectively carry out their work each day.
The USCIS IT Transformation Strategy documents this problem, emphasizing
that USCIS requires an immediate upgrade to hardware and
telecommunications equipment (i.e. desktops, workstations, servers, and
networks) used in the field. The strategy document states that the last major
upgrade of the IT infrastructure was completed in 1995. Further, USCIS
officials stated that USCIS has neither an adequate inventory nor a
replacement policy for these IT assets. District office managers who we


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 19
interviewed stated that hardware upgrades are conducted in a haphazard
manner–usually when mo ney is leftover in their general and operating
expense budgets, leading to disparities in equipment and software across field
offices. The outdated equipment limits productivity, reduces efficiency, and
incurs high operations and maintenance costs. According to an OCIO
analysis, desktop operating systems fail regularly resulting in lost or damaged
files, requiring that adjudicators reboot an average of two to three times per
day. The OCIO calculated that such computer outages result in about $16
million in lost productivity each year.

Because of this outdated IT infrastructure, USCIS is limited in its ability to
upgrade to new, more advanced software applications. For example, one
employee stated that new software recently received was not compatible with
the out-of-date production servers. As a result, USCIS employees had to
spend time and money simplifying the software to make it work. In addition,
officials at multiple locations stated that after their local offices purchased
new computers with an operating system, Windows 2000, pre-installed, they
had to spend several hundred dollars to downgrade the computers to Windows
95. The officials said that many of their applications were not compatible
with Windows 2000 and could only run on the older operating system.

Moreover, the various hardware platforms and networks used across USCIS
offices for benefits processing are not easily integrated. Although numerous
documents, such as the USCIS Backlog Reduction Plan and the
Ombudsman’s 2004 annual report, document this problem little has been done
to address it. The various platforms make it difficult and expensive to
standardize the software used nationwide. Often, headquarters IT tests a new
software program and it works fine until it is deployed to the field. For
example, due to the lack of standardization, when headquarters provided a
new version of CLAIMS 3 to its four service centers nationwide, the system
worked well at two locations but not at the others. Similarly, USCIS is
experiencing problems implementing the National File Tracking System at the
service centers because of its different hardware platforms. In another
instance, when USCIS headquarters officials tried to extend use of a “home
grown” employment authorization system from one field location to offices
nationwide, they found that they needed to alter the system to make it work on
the various nonstandard platforms.

As of March 2005, the OCIO had begun to address the IT infrastructure
problems. For example, the OCIO had outlined plans to upgrade desktops and
servers in the field and consolidate data centers. According to the OCIO,
however, the field deployment of the desktop upgrades has been delayed to


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 20
                           the fourth quarter of FY 2005 due to departmental procurement delays. The
                           OCIO is also working to create an enterprise solution to support intra and
                           interagency process integration and information sharing.

Challenges to Modernizing IT
                           Despite federal requirements, USCIS has not had a focused approach to
                           improving the processes and systems used to accomplish its citizenship and
                           immigration services mission. Similarly, IT planning and implementation has
                           been conducted in a decentralized manner across the organization, although
                           initial steps have been taken to address this issue recently. Given this
                           approach, USCIS is not leveraging the potential of IT, streamlined processes,
                           and coordinated improvement initiatives to meet its mission objectives. The
                           impact of the DHS reorganization, new security requirements, and changes to
                           immigration legislation pose challenges to effective modernization as well.

Strategic Planning
                           The Government Performance and Results Act of 1993 holds federal agencies
                           responsible for strategic planning to ensure efficient and effective operations
                           and use of resources to achieve mission results. 9 However, USCIS has not
                           developed and implemented an effective strategy to move the organization
                           from its paper-based processes to an electronic environment. Since its
                           inception in March of 2003, the agency has had three strategic plans and two
                           IT plans. Principally, however, USCIS officials rely upon the Backlog
                           Elimination Plan as their foremost direction. Each of these plans is discussed
                           below.

                           INS Ten-Year Plan

                           INS developed the oldest of these plans, the Immigration Services Program
                           Business Plan, in August 2001 prior to the creation of USCIS. This ten-year
                           plan provides a long-term vision for transforming immigration services,
                           including implementation of technology upgrades and streamlined processes.
                           Several senior officials view the plan as relevant today with the belief that
                           USCIS has the same philosophy and core values that the former INS had
                           when it developed the plan just prior to the events of September 11, 2001.
                           These senior officials continue to use it as a framework for moving the
                           organization toward a more customer-centric approach. According to these
                           officials, the plan provides some key concepts, which remain in effect and

9
    The Government Performance and Results Act of 1993, Public Law 103-62, August 3, 1993.

                            USCIS Faces Challenges in Modernizing Information Technology

                                                             Page 21
some initiatives that continue to be implemented. In addition, they said that
the plan is aligned with a ten-year IT strategic plan implemented by the
organization’s Office of Services Modernization in the same time frame. We
were unable to determine whether or not USCIS is measuring performance as
outlined in the plan.

USCIS 2004 Business Plan

Although some senior officials assert that nothing has changed since
development of the INS Ten-Year Plan, incoming USCIS leadership
re-evaluated immigration benefits processing priorities and determined that
updated guidance was needed. Accordingly, USCIS developed a 2004 Draft
Business Plan, constituting an updated version of the INS Ten-Year plan.
USCIS drafted the plan to account for changes in its business environment,
such as its reorganization into the DHS, new legislation, and new national
security processing requirements. This business plan was designed as a long-
term, strategic plan that would serve as the foundation for USCIS’ future. The
plan was intended to ensure that reactive, “quick fix” responses to changes in
the business environment remained a strategy of the past.

Backlog Elimination Plan

The Backlog Elimination Plan, dated June 15, 2004, is an updated version of
the former INS’ Backlog Elimination Plan issued in March 2002. Although
not designed to be a strategic plan, one senior official stated that essentially
the Backlog Elimination Plan serves as USCIS’ short-term business plan and
the driving force behind everything that the bureau does. Another senior
official said that USCIS has delayed some key items in its business plan to
focus on reducing the backlog, which is a top priority at USCIS. The strategy
described in the Backlog Elimination Plan includes reengineering and
automating manual work processes to help reduce the volume of applications
that need to be processed. To meet a Homeland Security Act requirement that
USCIS report annually to the Congress on the backlog, the plan provides the
numbers of immigrant benefits applications for which processing is overdue,
identifies steps to reduce this workload, and establishes annual production
goals. While we were unable to determine whether USCIS is measuring
performance in achieving goals in other plans, we determined that the bureau
is measuring progress in backlog elimination.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 22
                        FY 2005 Strategic Plan

                        USCIS’ Office of Policy and Strategic Planning provided the most current of
                        the four competing documents, the FY 2005 Strategic Plan, in draft format in
                        March 2005. This strategic plan establishes a framework for aligning and
                        integrating the different components of the USCIS organization. The plan
                        includes six goals related to prevention of fraud and illegal activities,
                        improved customer service, and organizational, technological, and operational
                        excellence in immigrant benefits processing. These goals align with the
                        vision and mission themes identified in DHS’ strategic plan. According to
                        representatives of the Office of Policy and Strategy, the plan is not meant to
                        be a substitute for plans devised by each USCIS component organization.
                        These officials said they did not want to be too rigid in providing strategic
                        direction and risk limiting each component’s ability to be creative.
                        Nonetheless, one senior official stated that the plan is too theoretical and
                        vague, and it does not include timelines or performance measures.

Slow Process in Centralizing IT Management

                        According to the Office of Management and Budget, an agency’s IT Plan
                        should support its strategic plan and describe how information resources will
                        be used to help accomplish the agency’s mission. 10 However, until recently,
                        IT planning and management has been conducted by two separate
                        headquarters offices. In addition, individual district offices and service
                        centers within the USCIS field office structure independently developed and
                        implemented IT systems and initiatives to meet their needs. Steps were taken
                        in May 2005 to help centralize this IT planning and management, but it is too
                        soon to assess the results.

                        Office of Services Modernization

                        In August 2001, as a corollary to the INS Ten-Year plan, INS developed
                        another ten-year plan for modernizing the agency’s IT. The Ten-Year IT Plan
                        outlined an approach to acquiring a new case management system—the
                        Tracking Applications for Benefits System—that was supposed to replace the
                        major CLAIMS 3 and CLAIMS 4 applications.

                        When USCIS was established, it created an Office of Services Modernization,
                        responsible for continued management of the improvement initiatives begun
                        under the legacy organization. The Office of Services Modernization was to
10
  Management of Federal Information Resources, Revision of Office of Management and Budget Circular A-130,
Transmittal 2, July 15, 1994.

                         USCIS Faces Challenges in Modernizing Information Technology

                                                          Page 23
lead implementation of the previously discussed 2004 Business Plan, ensuring
that elements in the plan were carried out appropriately and coordinated with
the USCIS entities responsible for ongoing operations. The Office of Services
Modernization included ten teams to provide technical and management
support for the improvement initiatives.

Office of the Chief Information Officer

In April 2004, the OCIO was established within USCIS. The OCIO is
responsible for planning and implementing IT systems and initiatives. The
OCIO is comprised of a program management office, a chief technology
officer organization, and five functional area offices responsible for security,
infrastructure, enterprise applications, deployment, and business liaison.
Although the Office of Services Modernization had developed a Ten-Year IT
Plan, the OCIO issued its own plan, establishing strategic direction for a
five-year period beginning July 2004. The plan provides a mission statement,
goals, objectives, a project approach, and a timeline for modernizing USCIS
IT. The following plans support the OCIO’s strategic IT plan:

   •    USCIS IT Transformation Strategy: Issued in January 2005, the
        transformation strategy provides a broader, more incremental
        approach, and, generally, an update to the organization’s
        modernization strategy. The transformation strategy discusses the
        current environment, business requirements, and vision for
        modernizing IT to meet mission needs.

   •    IT Transformation Mission Needs Statement : Issued in March 2005,
        the mission needs statement describes the specific functional
        capabilities required to support USCIS IT improvements, in line with
        DHS guidelines.

   •    IT Review Board Charter: Issued in March 2005, the charter describes
        the board’s structure, responsibilities, and operating procedures.

   •    Draft IT architecture: Provided in April 2005, the IT architecture
        includes an overview of USCIS’ current and projected mission
        processes, structures, and systems.

The OCIO’s plans discuss upgrading the USCIS IT infrastructure and
implementing a new case management system. The OCIO anticipates that,
upon completion of the case management system, adjudicators should be able
to access all of the information they need, at any USCIS location, to process

USCIS Faces Challenges in Modernizing Information Technology

                                 Page 24
benefits. However, several senior officials cautioned that as USCIS proceeds
with developing the proposed case management system, attention be given to
monitoring costs and contractor performance.

Operations

In addition to the Office of Services Modernization and the OCIO, other
organizations across USCIS often institute IT solutions. The Office of
Services Modernization and OCIO generally develop and fund major IT
initiatives for use throughout the bureaus; however, there has been no
centralized IT fund. Field offices have their own operations budgets and
therefore the flexibility to use this money to pay for IT projects to meet their
individual needs. For example, the OCIO recently conducted a survey to
develop an IT baseline and found that the bureau had more than 2,500 planned
or ongoing IT projects scattered throughout the organization. As previously
discussed, the five different scheduling systems used at the application
support centers were independently funded by field offices using their general
expense budgets.

Further, the field offices often have their own structures for managing IT. For
example, each service center has a team of support personnel to help carry out
its independent IT initiatives. Even though the IT managers responsible for
these teams meet quarterly with the Deputy Director for Service Center
Operations at headquarters, the IT managers traditionally have not fallen
under the purview of the USCIS CIO. As discussed above, until April 2004
there was no central CIO providing IT oversight bureau-wide. Like the
OCIO, the service centers have their own IT review boards for approving IT
projects. The various USCIS district offices are even more independent than
the service centers with respect to IT, individually managing and developing
their own IT solutions. Often, district office adjudicators–the personnel
directly responsible for processing claims–develop IT solutions with minimal
guidance and oversight from headquarters.

Recent USCIS Plans to Centralize IT Management

Recently, USCIS has taken positive steps to move from its decentralized IT
management structure at headquarters by consolidating IT elements of the
Office of Services Modernization under the OCIO. Major IT modernization
projects, such as electronic filing of benefits, have been moved to OCIO
control. Other initiatives such as the Tracking Applications for Benefits
System have been discontinued as the OCIO considered the focus of this
system too narrow to support its goal of integrating USCIS’ systems.


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 25
                        More importantly, however, in May 2005, USCIS’ associate director for
                        operations, in conjunction with the CIO, issued a memorandum informing
                        agency employees that all IT field and headquarters staff would be
                        consolidated within the OCIO. This initiative, endorsed by the USCIS
                        Director and the senior leadership team, is a multi-phased effort that begins
                        with reassigning Service Center, National Benefits Center, and National
                        Records Center IT employees to the OCIO, effective June 15, 2005.
                        Subsequent phases of the consolidation include integrating IT personnel and
                        resources from USCIS headquarters, district offices, and sub offices in the
                        OCIO by the first quarter of FY 2006. The IT consolidation complies with a
                        DHS management directive, which requires that each department component
                        align and integrate its IT resources. 11 Nonetheless, several officials expressed
                        concerns that the OCIO might not have the same priorities as the service
                        center directors who previously managed IT to meet the production goals and
                        quick response times needed in the field. Because these consolidation plans
                        are so recent, it is too soon to assess their effectiveness.

                        IT executives at several federal agencies who recently transformed their IT
                        operations emphasized the benefits of centralizing IT under agency CIOs and
                        providing those CIOs with control over the IT budgets and staff of all
                        organizational elements. The IT executives said that without this control, the
                        CIOs lack the authority to carry out effectively their IT management
                        responsibilities. With such control, they said that CIOs have been able to
                        consolidate their IT infrastructures, resulting in elimination of duplicative
                        systems, institution of agencywide standards, improved communications, and
                        reduced costs. However, the executives cautioned that IT modernization must
                        be driven by the agency’s mission and strategic plan rather than by technology
                        officials alone. Specifically, they suggested that the business and IT sides of
                        the organization must work together to effectively communicate and ensure
                        that IT plans and architectures effectively support agency operations.

Modernization Approach

                        In the absence of consolidated and focused business and IT strategies, backlog
                        elimination has become USCIS’ driving force in carrying out its operations.
                        To eliminate the backlog, USCIS is not maximizing the potential of its human,
                        financial, and technology resources to help modernize and increase the
                        efficiency of its operations. Rather than technology, USCIS is focusing on
                        using additional staff as the means to reduce its benefits processing workload.

11
 Information Technology Integration and Management, Department of Homeland Security Management Directive
System, MD Number 0007, October 14, 2004.

                        USCIS Faces Challenges in Modernizing Information Technology

                                                         Page 26
                           Where IT initiatives are considered, they are adopted in a reactive manner to
                           address pressing needs rather than strategically to address fundamental
                           operational problems. Contrary to federal requirements, business process
                           reengineering is not consistently conducted prior to selecting and applying IT
                           solutions. Last, as with redundant planning activities, USCIS modernization
                           initiatives are conducted in an ad hoc manner and tend to be duplicative or
                           overlapping.

                           Backlog Reduction

                           The Paperwork Reduction Act of 1995 requires that agencies apply IT to
                           increase the efficiency and effectiveness of their business operations. 12 In
                           accordance with this guidance, USCIS’ strategic plans state that the bureau
                           will develop seamless, IT-supported processes to efficiently adjudicate
                           immigration benefits. USCIS’ Backlog Reduction Plan also states that the
                           bureau will reengineer and automate manual processes to achieve greater
                           efficiencies.

                           Despite these requirements, USCIS relies predominantly on personnel rather
                           than technology to address the backlog. This reliance on personnel is
                           exemplified by the manner in which the bureau is using its $560 million
                           congressional appropriation for backlog reduction purposes for FYs 2002-
                           2006. (See Table 2 on the following page.) Specifically, USCIS is using the
                           appropriation to hire temporary employees, pay overtime costs, and fund mail,
                           file, and data entry operations to the exclusion of other initiatives that could
                           have a greater long-term impact on increasing operating efficiency. About 2
                           percent of the money has been allocated to IT improvements. In contrast,
                           USCIS estimates that from FY 2002 to the end of 2006, it will have spent
                           about $384,800,000, or 68 percent of the total backlog appropriation, on
                           temporary employees and overtime. Approximately 29 percent of the
                           appropriation was allocated for paper-based operations, such as records
                           management, mailing, filing, and data entry.

                           To help reduce the backlog, USCIS' temporary personnel workforce has
                           become sizeable. According to a senior official, USCIS headquarters has
                           1,200 temporary employees, which the bureau expects to eliminate by the end
                           of 2006. One location alone has over 100 temporary employees to help with
                           the backlog. At several locations, up to 50 percent of the employees assigned
                           to several specific divisions are temporary. Both adjudicators and senior staff
                           in several field locations expressed concerns that the backlog will increase
                           after the temporary employees leave.
12
     Paperwork Reduction Act of 1995, Public Law 104-13, May 22, 1995.

                            USCIS Faces Challenges in Modernizing Information Technology

                                                             Page 27
  (Dollar costs          2002        2003        2004       2005       2006      Total     %
  in thousands)                                                      estimate
  Temporary
                        45,404      46,281      47,901     107,401   51,313     298,300   53
  Employees
  Overtime              20,500      21,000      15,000     15,000    15,000     86,500    15
  IT
                        4,000        2,000       2,000     2,500      2,500     13,000     2
  Modernization
  Records
                        15,584      16,000      18,000     18,000    18,000     85,584    15
  Operation
  Mail, File,
                        14,512      14,719      17,099     17,099    13,187     76,616    14
  Data Entry
  Total                100,000     100,000      100,000    160,000   100,000    560,000   99 *

Table 2: Funds for Backlog Elimination, 2002-2006

*Note: Percentages do not add up to 100 due to rounding.


Senior USCIS officials provided several reasons for the relatively low priority
placed on using IT to meet backlog reduction goals. One senior official said
that it is difficult to provide resources for IT modernization efforts when the
top priority of the agency is addressing the backlog. Based on experience in
implementing CLAIMS 4, another senior USCIS official was skeptical that
new systems would help to reduce the backlog. This official said that, though
expected to increase productivity by 25 percent, CLAIMS 4 actually reduced
productivity by 20 percent because employees had to use both paper and the
computer to conduct their work. Another senior official echoed this
sentiment, stating that modernizing existing IT systems could possibly slow
down production, as it did when the National File Transfer System was
implemented recently at the Texas Service Center. Another senior official
said that USCIS has not focused on technology because no CIO office was in
place when the bureau was first established.

USCIS has had some success in meeting its backlog elimination goals. Upon
its creation in March 2003, USCIS had a backlog of approximately 3.5 million
applications. In contrast, the most recent Backlog Elimination Plan, issued in
FY 2004, estimated that the backlog stood at just over 1.5 million cases.
However, over half of this reduction can be attributed to the bureau’s
reclassification in July 2004 of about 1.1 million backlog cases involving
immigrant visa petitions. Such reclassifications, as well as the strategy of
relying upon temporary employees, may benefit USCIS in the short-term.
However, they will not resolve the long-standing processing and IT problems
that contributed to the backlog in the first place. Until these problems are
addressed, USCIS will not be able to apply its resources to meet mission and
customer needs effectively.

USCIS Faces Challenges in Modernizing Information Technology

                                      Page 28
Reactive IT Approach

Given that USCIS does not manage IT as a strategic resource, USCIS has
evolved into an organization that develops multiple systems and initiatives in
an ad hoc manner to respond to pressing circumstances. This IT approach
often does not include user participation and therefore results in the
implementation of systems that do not meet user needs.

        Ad Hoc IT Solutions

Because headquarters IT has not adequately supported the needs of users in
field locations, field staff typically have developed their own systems to meet
pressing needs. USCIS’ March 2005 IT Transformation Mission Needs
Statement recognizes this practice, noting that “going back to the days of the
INS, USCIS operations has had poor experiences with its central IT support,
leading to the reliance on decentralized IT support in field locations.” Also,
the organization’s general philosophy has been to allow field offices wide
latitude in managing their operations so as not to stifle creativity. The result
has been a plethora of non-standard systems, which support various functions
in the field locations including:

   •    standardizing and tracking correspondence
   •    preparing performance reports
   •    conducting and tracking results of security checks
   •    managing congressional inquiries
   •    tracking benefits reinstatements and changes to immigrant status
   •    processing employment authorization documents

A contractor who we interviewed stated that one service center had as many
as 80 “home-grown” systems.

While the locally-developed systems help field offices more effectively and
efficiently complete their work, these systems create a number of problems.
Because of the ad hoc manner in which they are created, often field employees
do not document these local systems. The lack of documentation makes it
difficult for local IT staff to support these systems, especially if those who
originally developed the systems no longer work in the field locations.
Because they typically are developed using inexpensive and less powerful
software, the locally-developed systems may not easily expand to provide
additional capacity or functionality. For example, a "home grown" database
of congressional information became inundated with information by too many
users–it eventually crashed, losing all information. Further, these locally-

USCIS Faces Challenges in Modernizing Information Technology

                                 Page 29
developed systems may not be compatible with national systems that USCIS
headquarters deploys to the field, creating additional problems for users. At
one location, an individual created a database for use with Microsoft Windows
97 software. After USCIS headquarters upgraded field sys tems to Windows
2000, the database was no longer compatible and stopped functioning.

Ad hoc systems development generally is not an effective strategy, especially
given the problems they create. However, one particular system was so
successful in meeting local needs that it was expanded for national use:
personnel in Miami, Florida developed a scheduling system, “InfoPass,” to
reduce the crowds of waiting customers at the local district office. Senior
Miami officials sanctioned the system with the belief that the process of
having customers wait in line all night to get into the district office the
following day was inhumane to customers as well as demoralizing to
employees who had to deal with customer frustrations. Although the system
was not certified and accredited initially, it has been tested to meet USCIS’
security requirements and has been implemented nationwide.

The “InfoPass” system has both benefits and drawbacks. It has proven
beneficial in eliminating long lines of customers, controlling workflow, and
helping managers plan and set aside time for employee training. Conversely,
some offices apart from the Miami district office that developed “InfoPass”
are concerned that the system cannot be adapted to meet their individual
needs. Additionally, “InfoPass” does not allow an applicant to schedule a
district office appointment any farther than two weeks in advance so it is
sometimes difficult for customers to get appointments.

Another district office developed a correspondence tracking system that has
the potential to be expanded for wider use. The system is used to input
requests by case number, assign correspondence cases to adjudicators,
generate letters, and create reports. Office personnel spent six months
analyzing workflows and developing a business case for the system. The
system has met life cycle development requirements and its implementation
has proven highly beneficial to the local office in decreasing response time to
inquiries and improving customer service. Although there is no
correspondence tracking system available on a national level, this system
remains limited to local use because, at the time of development, INS
headquarters was not receptive to the idea.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 30
        Need for User Input to Headquarters Systems

IT executives at other federal agencies that recently transformed their IT
stressed the importance of user participation in the systems development
process. These executives said that users should be actively involved in
providing input to requirements and conducting acceptance testing prior to
system implementation. However, the lack of headquarters receptivity to user
needs generally has been a problem at USCIS. Headquarters has recently
introduced a number of systems to improve benefits adjudication, but some of
these systems were implemented with inadequate input from the field and
consequently do not meet users' needs. Several USCIS employees stated that
although headquarters staff–especially developers–do not have a good
understanding of user needs, they rarely solicit input. Employees further said
that when users submit their IT ideas to headquarters, they often are not well
received.

For example, we were told that headquarters did not request user input during
development of the Integrated Case Management System. Employees said
that the system developer had no experience with adjudications and deployed
it to the field without user testing. Further, personnel at the service centers
that use the case management system said that they must have a different
logon to connect to each district office with which they coordinate. National
Benefits Center personnel operate the help desk for the system; although these
personnel received training, they do not have much experience with the
system. Employees anticipate that, given the user feedback solicited by
headquarters since system deployment, version 2 of the system may address
some of their complaints.

Further, CLAIMS 4 system development also did not include much user input.
USCIS developed the system in response to “Citizenship USA,” a program
initiated in 1995 to reduce the backlog of pending cases by requiring that
eligible applicants be naturalized within six months of application. Likely due
to inadequate user input, however, the system is slow, difficult to use, and
does not reflect the process for managing naturalization applications. For
example, if information is not entered into the system in a certain order, errors
occur and then must be manually corrected because the system does not allow
for adjustments. Users find this to be a very labor-intensive process.

Similarly, a new initiative for electronic filing of benefit applications has
created problems. According to a senior official responsible for system
implementation, “e-filing” began in May 2003 in response to Office of
Management and Budget direction that USCIS take steps to comply with


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 31
Paperwork Elimination Act requirements. The Office of Services
Modernization spent over a year developing the system, but did not ask for
user requirements until after they had finished. As a result, the e- filing system
experienced a number of problems upon implementation. Although intended
to improve efficiency in line with legislative requirements, the electronic
filing process actually creates additional work for field employees because it
is essentially paper-based; e- filed applications cannot be transferred to the
CLAIMS system automatically. For example, employees print electronic
applications as they are received and then manually match them with
supporting documentation after it arrives in the mail. Multiple filings result
because customers submit electronic applications repeatedly, fearing that they
might not have done so correctly the first time, or hoping that they might
speed up the process by filing more than once. An employee at the Texas
Service Center said that they had to create a flag system to identify the
multiple filings, but it does not work effectively.

Business Process Reengineering

While USCIS has undertaken some efforts to reengineer its business
processes, these initiatives are narrowly focused and do not cover all of the
organization’s activities. USCIS’ June 2004 Backlog Elimination Plan stated
that the agency would reengineer and automate manual workflow processes to
increase productivity. In addition, a March 2005 update of the plan identified
several processes that already been streamlined, including:

   •    Reengineering the adjudication process for certain cases that do not
        provide a new benefit or status to the applicant;
   •    Clarifying guidelines for adjudicators and prospective applicants
        regarding application requirements, which has helped reduce the
        number of requests for additional evidence; and,
   •    Changing the procedures for petitions for alien relatives, which has
        resulted in families being reunited more quickly.

A few business processing reengineering initiatives also originated in the
ombudsman's office and the service centers. For example, in a 2004 annual
report, the ombudsman recommended streamlining several specific initiatives,
which resulted in four pilot reengineering projects. Further, the service
centers collectively have business process reengineering groups responsible
for creating standard operating procedures for specific types of applications
and review processes.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 32
Although some processes have been reengineered, USCIS has no
comprehensive, coordinated effort to streamline or standardize processes
across the organization. A senior official, in citing the lack of a
comprehensive approach to business process reengineering, said that
standardizing processes has not been a priority because this diverts attention
from backlog reduction. Similarly, another senior official stated that, in
reengineering its processes, USCIS has focused narrowly on meeting its
backlog elimination goals rather than on reviewing its overall business
operation.

Duplicative Improvement Initiatives

Decentralized IT management has led to a number of redundant and
overlapping improvement initiatives within USCIS. As discussed above,
business process reengineering generally has been conducted by individual
offices throughout the organization rather than coordinated as one overall
initiative.

Another area of redundancy involves quality assurance. While USCIS
headquarters has a national quality assurance directorate responsible for
reviewing application production, staffing levels, and backlog reduction
performance, the service centers in the field manage a separate quality
assurance initiative. According to one senior official, USCIS brought in an
independent organization to resolve the differences between these initiatives
and develop one consolidated quality assurance approach. However, as of
March 2005, the two groups were still operating independent of each other. In
addition, some individual offices have their own quality assurance initiatives.
For example, USCIS’ central region is implementing “Total Quality
Management,” a program to standardize business practices as a means of
ensuring expected outcomes. Although a regional employee presented the
program to USCIS headquarters executives, headquarters has not
implemented the program; the central region continues to manage its quality
assurance initiative independently.

Further, two separate groups responsible for forms standardization do not
coordinate with each other. According to one official, for about two years a
group in the Office of Services Modernization has been pursuing ways to
standardize the various types of applications used within USCIS. Despite this
ongoing effort, another group within USCIS began coordinating with the
Office of Management and Budget and the Department of Treasury on forms
standardization.



USCIS Faces Challenges in Modernizing Information Technology

                                 Page 33
Modernization Challenges

                In addition to the internal management challenges, there are multip le external
                factors that contribute to the lack of significant progress in modernizing
                USCIS processes and systems. Some factors, such as the reorganization of the
                former INS, new security measures, and frequent changes to immigration
                laws, are outside of USCIS' control; but, nonetheless they have had significant
                impact on USCIS benefits processing time frames and workloads.

                Reorganization

                The division of INS into three distinct organizations within the newly
                established DHS has resulted in budget, bureaucratic, and coordination
                problems for USCIS. With regard to the budget, USCIS did not receive any
                IT funding upon its creation; all appropriated IT funds were allocated to
                Immigration and Customs Enforcement as well as Customs and Border
                Protection–the two organizations formed from the breakup of the legacy INS.
                According to USCIS’ March 2005 IT Transformation Mission Needs
                Statement, due to limited resources for base operations, it is unlikely that
                USCIS will reallocate funding for IT modernization. As a result, USCIS
                organizations rely on ad hoc use of their general expense accounts to fund IT
                transformation activities.

                Further, according to the USCIS 2004 Business Plan, the organizational
                uncertainties and new bureaucratic challenges associated with the INS
                breakup and the creation of DHS slowed the momentum achieved in prior
                modernization efforts. Several senior executives reiterated that the DHS
                reorganization created modernization delays. They said specifically that the
                creation of DHS created an extra layer of bureaucracy and that USCIS now
                must go through more levels of review to obtain approval on management
                decisions than required under the former INS. Instead of one INS
                commissioner establishing immigration policy, three separate managers no w
                make policy decisions–none of which are well coordinated.

                According to one senior official, while DHS is still working to set up its
                structure and operating procedures, it is difficult to fully establish USCIS as a
                new component within the context of this overall structure. For example, one
                official stated that it is difficult for USCIS to invest in IT without clear
                procurement guidelines from DHS and no idea as to when they will be
                provided. Further, DHS has not approved USCIS' organizational chart, even
                though it was submitted to senior department managers for approval more
                than a year ago. In addition, a number of senior executives expressed concern

                USCIS Faces Challenges in Modernizing Information Technology

                                                 Page 34
that the USCIS CIO reports to both the USCIS Deputy Director as well as the
DHS CIO, although the two may have conflicting goals and priorities.

Coordination among USCIS, Immigration and Customs Enforcement, and
Customs and Border Protection has not been easy either. Via shared services
agreements, the three DHS components rely on each other for human
resources, IT, and records management support. Under these agreements, one
component provides services in a given area to support its own operations as
well as those of the other two components. The agreements have posed
coordination challenges for senior managers. For example, USCIS
representatives said that, in providing shared IT support to USCIS field offices
in FY 2004, Immigration and Customs Enforcement billed USCIS for an
amount that was 25 percent greater than the bureau’s budget for these
services. When questioned, Immigration and Customs Enforcement could not
provide a detailed bill to support the amount charged. A senior manager in
USCIS said that it was difficult to plan and manage USCIS resources when
Immigration and Customs Enforcement controls a large portion of its services
at such prohibitive costs. Nonetheless, senior officials told us that DHS would
not allow USCIS to disengage from the shared service agreements.

Security

Increased security measures have affected the timeliness of USCIS benefits
processing. After the attacks of September 11, 2001, USCIS changed its
processes to include stricter security precautions, which have increased
processing time frames and added to the backlog of applications. A senior
official told us that, since the events of September 11, 2001, about 60 to 80
percent of the adjudications process is devoted to security measures such as
checking names, collecting biometric information, and conducting
background investigations.

One specific security measure–the name checks conducted by the Federal
Bureau of Investigation, has caused many processing delays. Numerous
officials in USCIS field offices told us that the name checks slowed work
processes considerably, adding to local backlogs of cases. The time frames
for conducting the name checks vary widely: some adjudicators said that the
name checks may take months to clear, while others told us that they can take
up to five years to be completed. According to bureau officials, USCIS
completes 82 percent of name check requests within one week and 99 percent
are completed within six months. The remaining one percent takes more than
6 months to finalize. This constitutes significant numbers of cases that must
be delayed while awaiting completion of the name checks. One district office


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 35
                         had stored in its records room approximately 4,000 files that awaited name
                         check determinations from the Federal Bureau of Investigation.

                         Immigration Legislation

                         USCIS must adapt to frequent changes in immigration laws, which impact its
                         processes and workloads. Legislative mandates make it difficult to project
                         future workloads and consequently, to conduct modernization planning.
                         According to one senior manager, every congressional session over the past
                         10-15 years has enacted new immigration legislation. For example, in 1986,
                         the Congress passed the Immigration Reform and Control Act.13 Under this
                         act, INS created a program to legalize the status of certain illegal aliens who
                         had resided in the United States continuously since January 1, 1982. As a
                         result, nearly three million illegal immigrants became legal permanent
                         residents; by February 1995, they were eligible to apply for citizenship,
                         creating enormous workloads for USCIS.

                         Similarly, section 245(i) of the Immigration and Nationality Act, as amended,
                         enacted in 1994, added greatly to the benefits processing workload. 14 Usually,
                         illegal immigrants are not allowed to apply for permanent residence in the
                         United States while residing in this country–they must first return to their
                         home nations to make application. However, under section 245(i), certain
                         illegal immigrants already in the U.S. were allowed to change their status to
                         legal permanent residence without returning overseas, resulting in a surge of
                         adjustment of status applications in FY 1995-1997.


Recommendations
                         We recommend that the Acting Deputy Director, U.S. Citizenship and
                         Immigration Services:

                         1. Develop a modernization strategy that includes short- and long-term goals,
                            funding plans, and performance measures to guide USCIS entities in
                            accomplishing their citizenship and immigration services missions.
                         2. Complete implementation of plans to centralize IT by placing all USCIS
                            IT employees, budgets, and systems under the CIO’s authority and
                            control.


13
  Immigration Reform and Control Act of 1986, Public Law 99-603, November 6, 1986.
14
  Departments of Commerce, Justice, and State, the Judiciary, and Related Agencies Appropriations Act, 1995,
Public Law 103-317, August 26, 1994.

                          USCIS Faces Challenges in Modernizing Information Technology

                                                           Page 36
             3. Ensure that the centralized CIO operation and its IT transformation plans
                and systems initiatives are linked to and effectively support the
                consolidated USCIS strategy.
             4. Review, analyze, and reengineer benefits adjudication activities to help
                eliminate duplication, transition from paper-based processes, better
                integrate systems, and provide systems access to the users who need it.
             5. Finalize and implement plans to upgrade and standardize IT hardware and
                software systems to support reengineered processes and systems
                integration and access improvement initiatives.
             6. Ensure representation and participation of users at the various levels from
                across USCIS in all process reengineering and IT transformation activities.

Management Comments and OIG Evaluation
             We obtained written comments on a draft of this report from the Acting
             Deputy Director, U.S. Citizenship and Immigration Services. We have
             included a copy of the comments in their entity at Appendix C.

             In the comments, the Acting Deputy Director partially concurred with one
             recommendation and concurred with the remaining five recommendations in
             our report. The Acting Deputy Director agreed that USCIS continues to be
             challenged by antiquated hardware and a universal lack of systems access and
             integration and conceded that effective incorporation of new information
             technology into the USCIS operation is a pressing priority to allow for more
             efficient workload processing. The Acting Deputy Director said that USCIS
             is prepared to modernize its environment and, as such, has initiated an IT
             Transformation Program, including some of the organizational and business
             process changes needed to take advantage of modern digital capabilities. The
             Acting Deputy Director further stated that USCIS is working to centralize IT
             under its CIO to ensure a strong partnership between business process
             reengineering and technology modernization. A major concern of the Acting
             Deputy Director is obtaining the funding necessary to implement the USCIS
             IT Transformation Program effectively.

             Specifically, the Acting Deputy Director partially concurred with
             Recommendation 1 that USCIS develop a modernization strategy that
             includes short- and long-term goals, funding plans, and performance
             measures. The Acting Deputy Director stated that USCIS has initiated
             development of a multi- year business plan with modernization strategies and
             short- and long-term goals. Further, a cross-agency working group, including
             OCIO officials, has developed performance measures for all of USCIS’
             strategic goals, objectives, and initiatives, which will be implemented in FY

             USCIS Faces Challenges in Modernizing Information Technology

                                              Page 37
2006. However, the Acting Deputy Director remained concerned about
inadequate funding to implement the IT Transformation Program and
requested that the OIG recommend that DHS and USCIS work together to
develop a funding strategy.

It should be noted that USCIS’ Mission Needs Statement for the USCIS IT
Transformation, dated March 31, 2005, includes a funding strategy that seeks
appropriated and other funding for the IT transformation. The Mission Needs
Statement says that there is a substantial risk that because fee revenues are
stable to declining, they will not be sufficient to fund the investments needed
to transform USCIS IT systems and infrastructure. The Mission Needs
Statement further states that USCIS will seek appropriated resources in the FY
2007 budget and continuous fee- for-service funding from other DHS
components to allow USCIS to invest in advance the resources necessary to
effectively implement the IT transformation. USCIS estimates that without
such funding in advance, the organization would have to incrementally
implement the IT transformation, which it estimates would take 10 years. In
our view, completion of a complete cost-benefit analysis would be beneficial
to support USCIS’ need for funding and to document estimated future cost
savings.

The Acting Deputy Director concurred with Recommendation 2, that USCIS
centralize IT by placing USCIS IT employees, budgets, and systems under the
CIO's authority and control. USCIS has begun this process as part of the
USCIS' IT Transformation Program and will continue to align IT employees
and put systems and IT budget items under the CIO as they are identified.

Recommendation 3 calls for the centralized CIO operation and IT
transformation plans and systems initiatives to link to and effectively support
a consolidated USCIS strategy. The Acting Deputy Director concurred with
this recommendation and outlined how USCIS' strategic plan links to DHS’
strategic plan. Further, the Acting Deputy Director described how the IT
Transformation Program is linked to, and helps meet, both DHS’ and USCIS’
mission goals. However, as we recommend, USCIS also needs to ensure that
the IT Transformation plans and systems initiatives are linked to the multi-
year business plan currently under development. Metrics and a process for
measuring progress in IT transformation also should be included.

The Acting Deputy Director, in responding to Recommendation 4, stated that
USCIS headquarters and field office leadership began development of a
structure for implementing a business process transformation initiative. The
director also states that the IT Transformation Program is working in tandem


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 38
with this effort and is involved with the organizational and business process
changes needed to move to a digital environment.

The Acting Deputy Director discussed USCIS progress in addressing
Recommendation 5 to finalize and implement plans to upgrade and
standardize IT hardware and software systems to support reengineered
processes and systems integration and access improvement initiatives. The
Acting Deputy Director said that an infrastructure component of the IT
Transformation Program will be designed, operated, and maintained to
enhance USCIS’ workload management and flexibility in managing and
focusing its workforce. The functional characteristics of the USCIS IT
infrastructure will be based upon USCIS and DHS business processes to meet
mandated missions and the resulting architecture will be aligned with the DHS
architecture. Further, the Acting Deputy Director stated that a contract was
awarded in August 2005 for desktop upgrades and a request for proposal for
systems integration is planned for release in September 2005.

The Acting Deputy Director also concurred with Recommendation 6 that
USCIS ensure representation and participation of users at various levels across
USCIS in all process reengineering and IT transformation activities. The
Acting Deputy Director stated that USCIS has already begun this process with
the August 2005 business process transformation meeting. Further, USCIS is
creating a dedicated team consisting primarily of field employees, which will
form the basis for requirements to ensure that the technology will actually
work for USCIS adjudicators.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 39
Appendix A
Scope and Methodology




We began our audit by researching laws related to USCIS’ responsibility for
reengineering and automating paper processes and improving the overall
efficiency of its operations. We reviewed prior GAO and Department of
Justice OIG reports related to USCIS’ IT systems. Additionally, we searched
the internet to obtain published reports, documents, and news articles
regarding USCIS operations. Using this information, we designed a data
collection approach, which consisted of focused interviews and
documentation analysis. We developed a series of questions and discussion
topics to facilitate our interviews.

We interviewed employees at USCIS headquarters and field offices, as well as
external agencies to meet our audit objectives. For example, we met with
senior USCIS executives at headquarters to learn about their roles,
responsibilities, and activities related to planning and implementing USCIS’
modernization efforts. Also, we met with senior USCIS officials to discuss
how IT is being managed across the organization. Officials within the OCIO
told us about strategies for modernizing IT. Further, we met with senior
managers to learn about coordination in planning and implementing
modernization efforts among headquarters divisions. We collected numerous
documents from USCIS officials about their plans and current initiatives for
modernizing IT. Finally, we compiled documentation providing information
on USCIS' processes, IT systems, budgets, and operations.

We visited 16 field offices where we interviewed various employees including
senior managers, IT staff, adjudicators, and clerical staff. We were
particularly interested in the systems they used, locally developed IT
solutions, business processes, communication with headquarters, and training.
We wanted to see how IT is managed in the field and if headquarters is
providing the necessary tools to the field offices. Where possible, we
obtained reports and other materials to support the comments and information
they provided in our interviews.

We visited the following field offices:

   •    Service centers, to learn about the systems and processes they used to
        process immigration benefits.
   •    District offices, to gain an understanding of how they schedule
        appointments, meet with customers, and process benefits.
   •    Regional offices, to learn about their role in supervising the district
        offices and their coordination with headquarters.
   •    Asylum offices, to learn about the systems and processes for managing
        asylum applications.

USCIS Faces Challenges in Modernizing Information Technology

                                 Page 40
Appendix A
Scope and Methodology




   •    Application Support Center, to learn about the systems and processes
        used to collect and transfer biometric information.
   •    National Records Center, to learn how immigration records are stored
        and managed.
   •    National Benefits Center, to understand this new structure's role in
        processing immigration benefits.
   •    Chicago Lock-Box, to understand its role in scanning applications and
        collecting fees.

Additionally, we met with two external groups, the American Immigration
Lawyers Association and the Executive Office of Immigration Review, which
have close relations with USCIS. Representatives of the American
Immigration Lawyers Association discussed issues that immigration lawyers
face related to USCIS IT and how these IT issues, in turn, affect the
immigration application process. To gain a perspective on the immigration
courts, we met with the Executive Office of Immigration Review and
discussed its role in the immigration process in relation to USCIS.

We met with current and former senior IT executives of the Veterans
Administration, the Internal Revenue Service, and the Social Security
Administration to identify effective practices or lessons learned that USCIS
might consider and apply as it modernizes its operations. These individuals
provided best practices and lessons learned from their recent IT
transformation experiences.

We conducted our review from July 2004 to April 2005 at locations in Dallas,
Texas; Los Angeles, California; New York City, New York; Chicago, Illinois;
Lee's Summit, Missouri; Miami, Florida; and the Washington, D.C.
metropolitan area. We performed our work according to generally accepted
government auditing standards.

The principal OIG points of contact for the audit are Frank Deffer, Assistant
Inspector General for Information Technology Audits, and Sondra McCauley,
Director, Information Management. Major OIG contributors to the audit are
identified in Appendix D.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 41
Appendix B
USCIS Process for Family-Based Permanent Residence and Naturalization Applications




1. Application for Family- Based Permanent Residence: This process begins
   when a customer mails an application and fee to the USCIS “lock box”
   (i.e., bank) in Chicago. Under this arrangement, the lock box receives the
   incoming mail, deposits the fee, and begins to process the application on
   behalf of USCIS, helping to reduce delays in fee collection. Personnel at
   the lockbox open the application, date stamp it, and scan it into a local
   system to create an electronic file, which is reviewed for accuracy,
   completeness, and eligibility. If the application does not meet
   requirements, lockbox personnel mail a rejection notice to the applicant
   and the application process discontinues. If the application is accepted,
   the customer is notified. The associated fee is then deposited and the
   application once again verified for completeness. Lockbox personnel
   enter data from the application into defined fields in another system. A
   quality control mechanism highlights mistakes to help ensure that the re-
   keyed information is entered correctly. At this point, the accepted
   application is placed in a folder, which is assigned a barcode that can be
   tracked throughout the process. The folder is transferred to a box for
   shipment to the National Benefits Center and the information in the
   electronic file is sent to CLAIMS 3.

2. File Transfer to the National Benefits Center: After the National Benefits
   Center receives and reviews the application, the customer receives a notice
   to visit an application support center to provide biometric information,
   such as fingerprints, signatures, and photographs for identification. The
   biometric information is then forwarded to the National Benefits Center
   and matched to the customer’s application.

    Next, personnel at the National Benefits Center check the Central Index
    System to determine whether the customer has an Alien File–commonly
    known as an A-file–which is an immigrant’s permanent record containing
    biographical information as well as a history of past immigration
    activities. If an A- file for the customer exists but is not readily available,
    the center creates a temporary file and requests the A- file from the holding
    office. If an A-File does not exist, the center creates one. The center then
    conducts an initial evidence check of the application and proceeds with
    processing. While the application for permanent residence is being
    processed, the center may adjudicate ancillary customer benefits such as
    the temporary right to work or travel. These supplemental benefits are
    documented and mailed to the customer.

    Next, the National Benefits Center completes the online background
    checks for the customer and puts the file in a queue on a shelf until a

USCIS Faces Challenges in Modernizing Information Technology

                                 Page 42
Appendix B
USCIS Process for Family-Based Permanent Residence and Naturalization Applications




    district office requests it. Once the district office requests the file, it is
    pulled from the file room, boxed, and prepared for shipment.

3. File Transfer to the District Office: The file is shipped to the district
   office that is nearest to where the customer resides. Upon receipt of the
   application, the district office shelves the file until the interview date.
   Near the day of interview, the file is pulled from the file room and
   prepared for the adjudicator–a USCIS official who is responsible for
   reviewing the case and granting or denying the benefit. The adjudicator’s
   decision is recorded in the Interim Case Management System, which in
   turn updates CLAIMS 3 at the National Benefits Center.

4. File Transfer to the National Records Center: If the application for
   permanent residence is granted, the paper file is sent by truck to the
   National Records Center in Lee's Summit, Missouri. The paper file
   remains in Lee's Summit until it is needed to process another benefit fo r
   the same customer.

5. Application for Naturalization: Five years after receiving permanent
   residence, a customer may apply for naturalization. The customer submits
   the naturalization application to one of the four USCIS service centers
   nationwide. At this point, personnel at the service centers perform many
   additional steps. When the applications are received in a service center’s
   mailroom, they are x-rayed and sent to a data entry area based on the
   application type. At this point, the mail is opened, the fee is deposited, the
   application is placed in file folders, and information from the application
   is entered into CLAIMS 4. Then, the file is assigned a receipt number and
   a barcode label is attached for tracking purposes.

6. File Transfer to the Service Center: At the service center, an application
   for naturalization must be matched with an A- file, requested from the
   National Records Center, and then sent to the relevant service center. At
   this point, the naturalization application is merged with the A- file and a
   notice is sent directing the customer to go to an application support center
   to provide biometric information.

    The files are then transferred to the file room, where they are scanned into
    the Receipt and Alien File Accountability Control System and stored on
    the shelves by file type and responsible party code, until adjudicators at
    the district offices are ready to review them. When an adjudicator is ready
    to review a file, the file is transferred from the file room and prepared for
    shipment.


USCIS Faces Challenges in Modernizing Information Technology

                                 Page 43
Appendix B
USCIS Process for Family-Based Permanent Residence and Naturalization Applications




7. File Transfer to the District Office: The service center ships the paper file
   to the district office closest to the customer’s residence. When the file is
   received, it is scanned using the National File Tracking System and placed
   in the district file room. When the naturalization appointment is nearing,
   the file is transferred to the office of the adjudicators and scanned using
   the National File Tracking System. An adjudicator at the district office
   conducts a naturalization interview and examination. If the officer
   requires additional evidence from the applicant, the file is returned to the
   file room and then returned to the officer when the evidence is received.
   If the adjudicator decides to grant the naturalization benefit, the CLAIMS
   4 system prints a certificate of naturalization, the customer’s photo is
   pasted to the certificate, and the certificate receives a seal, stamped by
   hand. At one district office that we visited, no employee was fully
   dedicated to this task. Instead, whenever na turalization ceremonies were
   scheduled, 8-10 employees were loaned from other areas in the office to
   help process the certificates.

8. Completed File Transferred to the National Records Center: Once the
   naturalization benefit has been fully processed, the paper file is sent by
   truck to the National Records Center in Lee's Summit, Missouri.




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 44
Appendix C
Management Response to Draft Report




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 45
Appendix C
Management Response to Draft Report




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 46
Appendix C
Management Response to Draft Report




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 47
Appendix C
Management Response to Draft Report




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 48
Appendix C
Management Response to Draft Report




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 49
Appendix D
Major Contributors to the Report




Information Management Division

Sondra McCauley, Director
Barbara Ferris, Audit Manager
Steve Ressler, Auditor
Tim Walton, Auditor




USCIS Faces Challenges in Modernizing Information Technology

                                   Page 50
Appendix E
Report Distribution




Depart ment of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
USCIS, Acting Deputy Director
Executive Secretariat
General Counsel
DHS Chief Information Officer
USCIS, Chief Information Officer
USCIS, Audit Liaison
DHS Public Affairs
DHS Legislative Affairs
DHS Office of Security
DHS OIG Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Appropriate Congressional Oversight and Appropriations Committees




USCIS Faces Challenges in Modernizing Information Technology

                                 Page 51
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations–
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
